<html>
<title> - WATER AND GEOTHERMAL POWER: UNEARTHING THE NEXT WAVE OF ENERGY INNOVATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      WATER AND GEOTHERMAL POWER:
                        UNEARTHING THE NEXT WAVE
                          OF ENERGY INNOVATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

                           Serial No. 116-55

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-273 PDF           WASHINGTON : 2020  
 
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
VACANCY
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           JIM BAIRD, Indiana
BILL FOSTER, Illinois
SEAN CASTEN, Illinois

                         C  O  N  T  E  N  T  S

                           November 14, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written statement............................................     7

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written statement............................................     9

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10

Written statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Dr. David Solan, Deputy Assistant Secretary for Renewable Power, 
  Office of Energy Efficiency and Renewable Energy, U.S. 
  Department of Energy
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Bryson Robertson, Co-Director, Pacific Marine Energy Center, 
  Associate Professor, Civil and Construction Engineering, Oregon 
  State University
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Joseph Moore, Manager, Utah Frontier Observatory for Research 
  in Geothermal Energy (FORGE), Research Professor, University of 
  Utah
    Oral Statement...............................................    30
    Written Statement............................................    32

Ms. Maria Richards, Director, Geothermal Laboratory, Roy M. 
  Huffington Department of Earth Sciences, Southern Methodist 
  University
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Sander Cohan, Director, Innovation, Enel Green Power North 
  America, Inc.
    Oral Statement...............................................    49
    Written Statement............................................    51

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Dr. David Solan, Deputy Assistant Secretary for Renewable Power, 
  Office of Energy Efficiency and Renewable Energy, U.S. 
  Department of Energy...........................................    78

Dr. Bryson Robertson, Co-Director, Pacific Marine Energy Center, 
  Associate Professor, Civil and Construction Engineering, Oregon 
  State University...............................................    87

Dr. Joseph Moore, Manager, Utah Frontier Observatory for Research 
  in Geothermal Energy (FORGE), Research Professor, University of 
  Utah...........................................................    88

Ms. Maria Richards, Director, Geothermal Laboratory, Roy M. 
  Huffington Department of Earth Sciences, Southern Methodist 
  University.....................................................    93

Mr. Sander Cohan, Director, Innovation, Enel Green Power North 
  America, Inc...................................................    98

            Appendix II: Additional Material for the Record

Documents submitted by Dr. Joseph Moore, Manager, Utah Frontier 
  Observatory for Research in Geothermal Energy (FORGE), Research 
  Professor, University of Utah..................................   102

Documents submitted by Ms. Maria Richards, Director, Geothermal 
  Laboratory, Roy M. Huffington Department of Earth Sciences, 
  Southern Methodist University..................................   110


                      WATER AND GEOTHERMAL POWER:

                        UNEARTHING THE NEXT WAVE

                          OF ENERGY INNOVATION

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:14 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. All right, good afternoon. This hearing will 
come to order. Without objection, the Chair is authorized to 
declare a recess at any time. Good afternoon. Welcome to 
today's hearing entitled, ``Water and Geothermal Power: 
Unearthing the Next Wave of Energy Innovation.'' Thank you to 
this distinguished panel of witnesses for joining us. Today 
we'll be holding another hearing on clean energy technology 
research and development. I believe this will be our eighth 
hearing this Subcommittee in the 116th Congress to help us 
focus our scientific research priorities, create major new job 
opportunities, and address and mitigate the impacts of climate 
change. Today's hearing focuses on two draft bills that would 
support critical research activity to provide cleaner energy by 
using geothermal energy and water power technologies.
    The Earth contains vast amounts of heat just under its 
surface, which can be tapped and turned into electricity. 
Today, just 0.4 percent of total U.S. utility scale electricity 
generation is produced by geothermal power plants. The 
Department of Energy (DOE) Geothermal Technologies Office (GTO) 
has programs focused on conventional geothermal energy 
production, from hydrothermal resources, such as geysers, as 
well as research focused on enhanced geothermal systems (EGS) 
research, which could help us access the higher temperatures 
deeper underground. This has the potential to increase 
geothermal electric power generation to 60 gigawatts of 
installed capacity by 2050, up by about four gigawatts today. 
This potential is why it's important for us to focus on R&D 
(research and development) in this promising area.
    The draft Geothermal Energy Research and Development Act of 
2019 would reauthorize the activities of the DOE Geothermal 
Technologies Office. In addition to laying out focus areas for 
both conventional and enhanced geothermal systems, this 
legislation would instruct the Secretary to establish a 
demonstration initiative for advanced geothermal energy 
systems. And we have heard from many witnesses in many areas 
all year about the importance of doing not only the fundamental 
research, but also the demonstration-scale research for these 
technologies, and we'll be looking to hear from you all about 
that today as well.
    At least one of the demonstration projects in this 
initiative must be located in the eastern United States, which 
currently has no such facility, and, finally, the bill would 
authorize two frontier observatories for research and 
geothermal energy, or FORGE, sites, including the site DOE 
selected in Milford, Utah. Today we will hear from Dr. Joseph 
Moore, who is the project manager at that site.
    Another clean energy technology we will be discussing today 
is water power, which includes conventional hydro, pumped 
storage, and marine energy technologies. Around 7 percent of 
total U.S. utility-scale electricity generation is produced by 
conventional hydropower. Pairing this technology with pumped 
storage systems allows energy produced by hydropower plants to 
be deployed to the grid flexibly.
    Marine energy, which includes wave, tidal, and current 
power, is another water power technology that has great 
potential. DOE's Powering the Blue Economy initiative 
highlights the importance of each maritime industry to the 
success of other such industries. Investing in this technology 
can help improve other areas of coastal and maritime markets, 
such as underwater vehicle charging and aquaculture. Given the 
overlap and independence between these industries, it makes 
sense to address the blue economy as a whole.
    The Water Power Technologies Office (WPTO) at DOE can do 
just that, and support research across a wide range of 
technologies, so the draft Water Power Research and Development 
Act of 2019 emphasizes key R&D focus areas and supports, again, 
important technology demonstration activities. It also 
authorizes existing and new national marine energy centers, 
which are testing sites for marine energy technologies hosted 
by academic institutions, and funded by both government and 
private industry. We are lucky today to have Dr. Bryson 
Robertson, Co-Director of the Pacific Marine Energy Center, to 
tell us about the important research done at these centers.
    I want to thank our panel of witnesses for coming all the 
way here today, and I look forward to hearing your input and 
feedback on these important topics, and especially on our draft 
pieces of legislation.
    [The prepared statement of Chairman Lamb follows:]

    Good afternoon and thank you to this distinguished panel of 
witnesses for joining us today. This afternoon we'll be holding 
another hearing on clean energy technology research and 
development. I believe this will be our eighth hearing this 
Subcommittee has held this Congress to help us focus our 
scientific research priorities, create major new job 
opportunities, and address and mitigate the growing impacts of 
climate change. Today's hearing focuses on two draft bills that 
would support critical research activities to provide cleaner 
electricity by utilizing geothermal energy and water power 
technologies.
    The Earth contains vast amounts of heat just under its 
surface, which can be tapped and turned into electricity. 
Today, just 0.4% of total U.S. utility-scale electricity 
generation is produced by geothermal power plants. The 
Department of Energy Geothermal Technologies Office has 
programs focused on conventional geothermal energy production 
from hydrothermal resources, such as geysers, as well as 
research focused on enhanced geothermal systems research, which 
could help us access the higher temperatures deeper 
underground. This has the potential to increase geothermal 
electric power generation to 60 gigawatts of installed capacity 
by 2050, up from about 4 gigawatts today. This growth potential 
is why it is important for us to focus research and development 
on this promising clean energy technology.
    The draft Geothermal Energy Research and Development Act of 
2019 would reauthorize the activities of the DOE Geothermal 
Technologies Office. In addition to laying out focus areas for 
both conventional and enhanced geothermal energy systems, this 
legislation also instructs the Secretary to establish a 
demonstration initiative for enhanced geothermal energy 
systems. At least one of the demonstration projects in this 
initiative must be located in the Eastern U.S., which currently 
has no such facility. Finally, the bill would authorize two 
Frontier Observatory for Research in Geothermal Energy, or 
FORGE sites, including the site DOE selected in Milford, Utah. 
Today we will hear from Dr. Joseph Moore, who is the project 
manager at this site. The FORGE initiative is crucial for 
demonstrating and testing geothermal technologies.
    Another clean energy technology we will be discussing today 
is water power technologies, which include conventional 
hydropower, pumped storage, and marine energy technologies. 
Around 7% of total U.S. utility-scale electricity generation is 
produced by conventional hydropower. Pairing this technology 
with pumped storage systems allows energy produced by 
hydropower plants to be deployed to the grid flexibly.
    Marine energy, which includes wave, tidal, and current 
power, is another water power technology that has great 
potential. DOE's "Powering the Blue Economy" initiative 
highlights the importance of each maritime industry to the 
success of other such industries. Investing in marine energy 
technology can improve other areas of coastal and maritime 
markets, such as underwater vehicle charging and aquaculture. 
Given the overlap and interdependence between these industries, 
it makes sense to address the "blue economy" as a whole.
    The Water Power Technologies Office at DOE supports 
research across a wide range of technologies. The draft Water 
Power Research and Development Act of 2019 emphasizes key R&D 
focus areas and supports important technology demonstration 
activities. It also authorizes existing and new National Marine 
Energy Centers, which are testing sites for marine energy 
technologies hosted by academic institutions and funded by both 
government and private industry. Today we are lucky to have Dr. 
Bryson Robertson, co-director of the Pacific Marine Energy 
Center, testify about the important research done at these 
Centers.
    I thank our panel of witnesses again for being here today 
and I look forward to their input and feedback on these 
important topics and this draft legislation.

    Chairman Lamb. The Chair now recognizes the Ranking Member, 
Mr. Weber, for an opening statement.
    Mr. Weber. Thank you, Chairman Lamb, for holding today's 
Subcommittee hearing. Looking forward also to hearing from our 
witnesses about the state of water and geothermal power 
technologies in the U.S., and about the Department of Energy's 
innovative clean energy R&D activities in these areas.
    Water and geothermal power R&D is funded through the 
Department's Office of Energy Efficiency and Renewable Energy, 
or EERE, and as we discuss yet another applied energy program 
this afternoon, it is important to remind ourselves that EERE 
is, by far, the Department of Energy's largest applied research 
program. At almost $2.4 billion, with a B, in annual funding, 
EERE receives more funding than the R&D budgets for research in 
fossil energy, in nuclear energy, electricity, and 
cybersecurity combined.
    Since DOE's Water Power Technologies Office, WPTO, and 
Geothermal Technologies Office, GTO, are both housed under this 
very well-funded program, I'm kind of again surprised to see my 
colleagues on the other side of this aisle propose legislation 
to grow these offices even more without proposing the funding 
offsets. As written, the Water Power Research and Development 
Act would increase spending on EERE's water power technologies 
activities by nearly 60, that's 6-0, percent by Fiscal Year 
2024. Similarly, the Geothermal Energy Research and Development 
Act would increase annual spending on EERE's geothermal 
technology activities to 150 million, with an M, dollars, which 
is nearly 70 percent higher than the House passed 2020 
appropriations level. It would also provide $150 million for 
this program each year through 2024.
    Once again, I do want to be clear, I'm supportive of DOE 
funding for innovative research in advanced renewable energy 
sources, and I believe that these technologies play a vital 
role in our country's path forward to a clean energy future. 
This is why I'm also supportive of basic research, the kind 
that the energy industry cannot conduct, like research in 
advanced computing, machine learning, and the development of 
new materials. This discovery science lays the foundation for 
the next technology breakthrough, and can only be supported by 
the Federal Government. This will require sustained Federal 
investment in the construction of critical research facilities, 
and infrastructure across the country, particularly in our 
world-leading National laboratories, and in our universities. 
By providing American researchers with the tools to perform 
that cutting-edge research, we can accelerate the development 
of a diversity of advanced energy technologies. These are the 
kind of investments we see prioritized in my friend Ranking 
Member Lucas' bill, the Advanced Geothermal Research and 
Technology Act of 2019.
    I'm also particularly pleased to see investments in a 
geothermal advanced computing and data science program, and 
critical support for GTO's innovative experimental user 
facility included in this legislation. Best of all, it 
prioritizes these areas responsibly, without significant 
increases in new spending.
    So I'm looking forward to considering this bill, Mr. 
Chairman, and hearing about the research it would prioritize 
today. So, in closing, let me say--I feel like I keep repeating 
myself. I hope that moving forward we can focus on prioritizing 
investments in fundamental research that we all agree are 
necessary to develop new energy technologies. And, with that, 
Mr. Chairman, thank you again for holding the hearing. I yield 
back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Lamb for holding today's subcommittee 
hearing. I'm looking forward to hearing from our witnesses 
about the state of water and geothermal power technologies in 
the U.S., and about the Department of Energy's innovative clean 
energy R&D activities in these areas.
    Water and geothermal power R&D is funded through the 
Department's Office of Energy Efficiency and Renewable Energy 
(EERE).
    As we discuss yet another applied energy program this 
afternoon, it's important to remind ourselves that EERE is by 
far the Department of Energy's largest applied research 
program. At almost $2.4 billion in annual funding, EERE 
receives more funding than the R&D budgets for research in 
fossil energy, nuclear energy, electricity, and cybersecurity 
combined.
    Since DOE's Water Power Technologies Office (WPTO) and 
Geothermal Technologies Office (GTO) are both housed under this 
very well-funded program, I'm again surprised to see my 
colleagues on the other side of the aisle propose legislation 
to grow these offices even more, without proposing funding 
offsets.
    As written, the Water Power Research and Development Act 
would increase spending on EERE's Water Power Technologies 
activities by nearly 60 percent by fiscal year 2024.
    Similarly, the Geothermal Energy Research and Development 
Act would increase annual spending on EERE's Geothermal 
Technologies activities to $150 million - nearly 70 percent 
higher than the House-passed 2020 Appropriations level. It 
would also provide $150 million for this program each year 
through 2024.
    Once again, I want to be clear - I'm supportive of DOE 
funding for innovative research in advanced renewable energy 
sources.
    And I believe that these technologies play a vital role in 
our country's path forward to a clean energy future.
    This is why I'm also supportive of basic research - the 
kind that the energy industry cannot conduct - like research in 
advanced computing, machine learning and the development of new 
materials. This discovery science lays the foundation for the 
next technology breakthrough and it can only be supported by 
the Federal government.
    This requires sustained Federal investment in the 
construction of critical research facilities and infrastructure 
across the country, particularly at our world-leading National 
laboratories and universities.
    By providing American researchers with the tools to perform 
cutting edge research, we can accelerate the development of a 
diversity of advanced energy technologies.
    These are the kinds of investments we see prioritized in my 
friend Ranking Member Lucas's bill, the Advanced Geothermal 
Research and Technology Act of 2019.
    I'm particularly pleased to see investments in a geothermal 
advanced computing and data science program, and critical 
support for GTO's innovative experimental user facility 
included in this legislation.
    Best of all it prioritizes these areas responsibly, without 
significant increases in new spending.
    I'm looking forward to considering this bill and hearing 
about the research it would prioritize today.
    So in closing - and I feel like I keep repeating myself - I 
hope that moving forward, we can focus on prioritizing 
investments in fundamental research that we all agree are 
necessary to develop new energy technologies.

    Chairman Lamb. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thank you, Chairman Lamb, for holding 
this timely hearing on two very important renewable energy 
resources, water and geothermal power.
    Water and geothermal power are some of this country's and 
the world's oldest forms of energy. The United States has 
harnessed hydropower for decades and Americans have used 
various forms of geothermal energy since the 1800s.
    Despite this long history, many water and geothermal energy 
technologies have struggled to become or remain competitive in 
modern energy markets, yet both still possess huge potential 
for further advancement and commercialization.
    The Department of Energy's recent GeoVision report found 
that with technology improvements, geothermal electricity 
generation could increase 26-fold by 2050. The same study found 
that my home state of Texas, as well as most other states, have 
significant opportunities to expand their use of one or more 
geothermal energy technologies. New approaches could also apply 
geothermal energy to industrial activities, such as through 
heat production for manufacturing processes or critical mineral 
extraction, including the production of lithium, which is often 
needed for advanced batteries.
    As for water power, pumped hydropower systems are 
considered a leading candidate to provide the large-scale, 
long-term energy storage that our electric grid will need as 
more renewables enter the electricity mix. Further, marine 
energy, which includes energy generated from waves, tides, and 
currents, has significant potential to power remote operations, 
and the U.S. Navy and others are already testing specific 
projects.
    With these opportunities for energy innovation comes a need 
for strong, well-guided federal investments in research, 
development, and demonstration activities. Federal R&D can 
continue to lower water and geothermal power costs and validate 
their emerging applications. We have only begun to touch the 
surface of what these technologies can do, and the DOE and our 
National labs, universities, and industry partners possess the 
expertise to explore them to their fullest potential. I look 
forward to using today's hearing to inform forward-looking 
legislation that will enable DOE to propel these technologies 
into the future.
    With that, I yield back.

    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairman Lamb, for hosting this hearing, which 
is especially relevant to the geothermal industry in my home 
state of Oklahoma.Geothermal energy systems draw from the 
constant and naturally occurring heat that radiates beneath the 
surface of the earth. This heat is a source of clean and 
renewable energy that is always "on." Our country has 
significant hydrothermal and geothermal energy resources, and 
if harnessed correctly, these resources have the capability to 
provide secure baseload power and energy storage for Americans 
across the country.
    Yet although the United States leads the world in installed 
geothermal capacity, geothermal energy contributes less than 
one percent to the total utility-scale U.S. electricity 
generation.
    In 2018, while wind energy generation accounted for 21 
percent of the growing U.S. renewable energy portfolio, 
geothermal energy generation accounted for just 2 percent.
    This is because today's geothermal energy technologies are 
often too expensive, time consuming, or risky for industry to 
take to scale. While I've seen the potential of geothermal 
energy in my district of Oklahoma with our thriving geothermal 
heat pumps industry, more work needs to be done to allow the 
rest of the country to access the full power of this resource.
    In order to effectively leverage these vast untapped energy 
resources, the next generation of geothermal technologies and 
techniques must become more efficient and less expensive for 
American consumers. Fortunately, we are uniquely positioned to 
prioritize the basic and early stage research that leads to 
groundbreaking technology.
    Federally funded research programs at the Department of 
Energy (DOE) have a history of paving the way for industry 
innovation. So I am pleased to see DOE and its Geothermal 
Technologies Office taking the lead in this valuable science, 
and to see them here today. It is critically important to our 
clean energy future that they have the support they need to 
pursue research that industry cannot undertake.
    This is an issue that my draft bill, the Advanced 
Geothermal Research and Development Act of 2019, will address. 
This legislation will provide the DOE's Geothermal Technologies 
Office with critical funding and program direction to enable 
innovative research in advanced geothermal technologies, 
strengthen the U.S. geothermal workforce, and encourage 
international collaboration. More specifically, it will 
authorize and expand the Department of Energy's early-stage 
research in enhanced geothermal systems and the major 
facilities needed to support this work.
    Today we will hear about one of these facilities from Dr. 
Joseph Moore, the manager of the Department's first Frontier 
Observatory for Research in Geothermal Energy (FORGE) field 
site in Utah. This facility will provide U.S. researchers with 
large-scale experimental capability to develop and test cutting 
edge geothermal technologies and validate experimental models. 
Using these tools, industry partners will be able to adapt 
techniques developed in the field for commercial use across the 
country. Dr. Moore, thank you for joining us today.
    My bill will also authorize a new program in advanced 
geothermal computing and data science research and development. 
This will leverage DOE's best-in-the-world computational 
capabilities to provide geothermal researchers with modeling 
and simulation tools that will allow them to more accurately 
model complex subsurface systems.
    With these tools, industry can improve the next generation 
of geothermal energy systems, using advanced designs to save 
time and money in planning, and producing power more 
efficiently with less impact on the environment. I believe this 
bill is an excellent opportunity for bipartisan cooperation, 
and I look forward to working with my friends across the aisle 
moving forward.
    We know that American industry has the resources to 
successfully commercialize new technology - we've already seen 
it happen with wind and solar. What they often lack is the 
infrastructure to conduct early stage research and test new 
technologies. This is where DOE, the National labs, and 
academia can help, providing experimental facilities and 
computational tools that will drive costs down and innovation 
forward.
    If we want to ensure a diverse portfolio of clean energy 
technologies now and in the future, we in Congress should 
prioritize this important fundamental research.
    I want to thank you Chairman Lamb for holding this hearing, 
and I look forward to hearing from our witnesses today about 
the path forward for next generation clean energy technologies.

    Chairman Lamb. OK. At this time I'd like to introduce our 
witnesses. Dr. David Solan is the Deputy Assistant Secretary 
for Renewable Power in the Office of Energy Efficiency and 
Renewable Energy (EERE) at the U.S. Department of Energy. He 
directs renewable energy applied research, development, and 
demonstration activities for the Geothermal, Solar Energy, 
Wind, and Water Power Technology Offices at EERE. He also 
oversees EERE's energy system integration efforts. Previously 
he was the Acting Executive Director and Principal Deputy 
Director of the Office of Policy, as well as the Senior Advisor 
in the Office of Science. Welcome, Doctor.
    Dr. Bryson Robertson is the Co-Director of the Pacific 
Marine Energy Center, and Associate Professor in Civil 
Engineering at Oregon State University. He has a bachelor of 
mechanical engineering from the University of Victoria, and a 
Ph.D. in environmental engineering from the University of 
Guelph. He has spent the better portion of the past 20 years 
actively involved within the North American marine energy 
market, energy systems, and coastal engineering sectors.
    Dr. Joseph Moore is the Manager of the Utah Frontier 
Observatory for Research in Geothermal Energy, or FORGE. He 
also holds appointments at the University of Utah as a Research 
Professor in the Department of Civil and Environmental 
Engineering, and as an Adjunct Professor in the Department of 
Geology and Geophysics. His expertise is in the geology, 
hydrothermal alteration, and geochemistry of geothermal 
systems, and his current research is focused on expanding 
geothermal development through the creation of enhanced 
geothermal systems.
    Ms. Maria Richards is the Director of the Geothermal 
Laboratory in the Roy M. Huffington Department of Earth 
Sciences at Southern Methodist University. She was the 
President of the Geothermal Resources Council in 2018. Her 
current research focuses on the use of temperature well logs 
for understanding climate change, the transition of oil fields 
into geothermal production, and low-temperature geothermal 
applications, such as district heating for commercial 
buildings.
    Mr. Sander Cohan directs North American Innovation for Enel 
Green Power North America, Inc. He has over 15 years of 
experience in the energy sector, specializing in innovation and 
emerging and alternative energy technologies. He has served as 
chief project director and manager for technology projects in 
diverse areas, such as energy storage, microgrids, and smart 
grid technology, predictive analytics, geothermal energy, 
hybrid renewables, and marine energy.
    Again, I know many of you came from far away today to be 
with us, so we really appreciate that. As you know, you will 
have 5 minutes for your spoken testimony. Your written 
testimony will be included in the record. When you've all 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel. We will 
start with Dr. David Solan.

                  TESTIMONY OF DR. DAVID SOLAN,

        DEPUTY ASSISTANT SECRETARY FOR RENEWABLE POWER,

       OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Dr. Solan. Thank you. Chairman Lamb, Ranking Member Weber, 
and Members of the Energy Subcommittee, thank you for inviting 
me to testify today on the opportunities and challenges of 
geothermal and water power technologies, and the activities 
that the U.S. Department of Energy is undertaking to help 
secure America's future through energy independence and 
scientific innovation. My name is David Solan, and I am the 
Deputy Assistant Secretary for Renewable Power in the Office of 
Energy Efficiency and Renewable Energy, or EERE. I direct 
renewable energy applied research, development, and 
demonstration activities there. Today I will be discussing the 
valuable work underway in two of our technology offices: The 
Geothermal Technologies Office, or GTO, and the Water Power 
Technologies Office, WPTO. I will also highlight several 
announced and upcoming activities at the Department.
    GTO conducts R&D to reduce cost and risks associated with 
geothermal development by supporting innovative technologies 
that address key exploration and deployment barriers. The U.S. 
is the world leader in installed geothermal capacity. As an 
always-on energy source that harnesses the Earth's natural 
heat, geothermal energy provides base load power with the 
flexibility to ramp on and off. Geothermal power plants can 
also provide essential grid services, and operate in a load-
following mode, helping to support reliability and flexibility 
in the U.S. grid, and ultimately facilitating a diverse, 
secure, and resilient energy mix. Geothermal energy can be used 
in three technology areas: The first generating electricity; 
the second providing residential and commercial heating and 
cooling using geothermal heat pumps; and the third direct use 
applications that can provide district scale heating solutions, 
as well as a wide array of commercial and industrial 
applications where process heat is required.
    In May 2019 the Department released its GeoVision Analysis, 
a multi-year collaboration among DOE and its stakeholders to 
evaluate the potential for different geothermal resources. It 
assessed opportunities to expand U.S. geothermal energy 
deployment through 2050 by improving technologies, reducing 
costs, and addressing project development barriers, such as 
long permitting timelines. GTO's flagship initiative, the 
Frontier Observatory for Research and Geothermal Energy, known 
as FORGE, heads the list of activities called out in the 
GeoVision roadmap. FORGE is a dedicated site to develop, test, 
and accelerate breakthroughs in enhanced geothermal systems, 
technologies, and techniques. It is now finishing the second of 
three phases, with the third slated to start later this fall.
    Turning to WPTO, it works with National laboratories, 
industry, universities, and other Federal agencies to conduct 
R&D activities through competitively selected projects. It is 
pioneering efforts in both marine energy and hydropower 
technologies to improve performance, lower cost, and, 
ultimately, support our ability to meet evolving energy 
demands.
    Hydroelectric power is the leading renewable energy source 
in the U.S., accounting for 7 percent of utility-scale electric 
generation in 2018. Conventional and pump storage hydropower 
are stable power sources that are also flexible enough to 
smooth out fluctuations between electric generation and demand, 
as they have large reservoirs of fuel, that is water, to fill 
any gaps in generation at a moment's notice. This stability and 
flexibility supports the deployment and integration of more 
variable renewable resources, such as wind and solar.
    Hydropower and pump storage fit in extremely well with the 
Department's activities in the Grid Modernization Initiative, 
or the GMI. Just last week we announced $80 million for new 
laboratory call projects. This is the latest solicitation 
released by the GMI, a cross-cutting DOE effort to develop new 
tools and technologies that measure, analyze, predict, protect, 
and control the grid of the future.
    In addition to critical R&D efforts in hydroelectric power, 
WPTO leads the way in evaluating new sources of marine and 
hydrokinetic energy, such as predictable waves, currents, 
tides, and ocean thermal resources. WPTO is investing in this 
new and innovative industry, a nascent technology sector that 
can contribute to our Nation's energy independence, and which 
is highlighted in WPTO's report: Powering the Blue Economy, 
published earlier this year.
    In addition, as we speak, EERE's Assistant Secretary, 
Daniel Simmons, is participating at the White House summit on 
partnerships in ocean science and technology. Later this 
afternoon, or as we speak, he will announce exciting 
developments in two new water technology prizes.
    Thank you for the opportunity to testify before the 
Subcommittee today. DOE appreciates the ongoing bipartisan 
efforts to address our Nation's energy challenges, and looks 
forward to working with the Committee on the bills in the 
future. I would be happy to answer your questions.
    [The prepared statement of Dr. Solan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you. Dr. Robertson?

               TESTIMONY OF DR. BRYSON ROBERTSON,

           CO-DIRECTOR, PACIFIC MARINE ENERGY CENTER,

          ASSOCIATE PROFESSOR, CIVIL AND CONSTRUCTION

              ENGINEERING, OREGON STATE UNIVERSITY

    Dr. Robertson. Chairman Lamb and Ranking Member Weber, 
thank you for the opportunity to testify today. In my testimony 
I'll address three things: First, the domestic marine energy 
opportunity; second, the strategic important of--importance of 
investment in innovation to spur the domestic marine energy 
technology sector; and finally, the importance of the Water 
Power Research and Development Act of 2019 for realizing the 
marine sector's potential.
    First, what is the marine energy opportunity? It 
encompasses energy in waves, tides, currents, rivers, salinity, 
and temperature differentials. Recent resource assessments 
quantify the U.S. wave resource at approximately 3,500 terawatt 
hours, the tidal resource at 450 terawatt hours, the ocean 
current at an additional 200, and the river at an additional 
150, providing a cumulative total of 4,300 terawatt hours. To 
provide perspective, the current U.S. electricity demand is 41 
terawatt hours, so less than the total resource. As such, 
marine energy has the as yet untapped potential to provide 
significant and needed renewable electricity resources for the 
U.S. grid. These resources would enhance a suite of renewable 
resources currently helping drive the U.S. transition from 
fossil fuels to renewable electricity generation.
    Of further economic interest to the U.S., marine energy 
offers a number of competitive advantages, and opportunities 
within the emerging blue economy. According to the OECD's 
(Organisation for Economic Co-operation and Development's) 26th 
report, blue economy related industries and activities 
contribute more than $1.5 trillion in value added to the 
economy each year, and that value is expected to double by 
2030. Marine energy is both part of this new economy and plays 
a linchpin role in providing the necessary power for innovation 
in the remaining spaces. To this end, the U.S. Department of 
Energy's Water Power Technologies Office recently released its 
Powering the Blue Economy initiative, which details specific 
near-term opportunities for marine energy. These include 
powering oceanographic measurement devices, recharging 
underwater autonomous vehicles, renewably powering offshore 
aquaculture facilities, desalinating water, and powering remote 
isolated communities.
    It is important to understand and underscore that a 
principle challenge in achieving the marine energy resource 
potential is the inconvenient fact that the technology 
commercialization pathway takes longer and costs more than 
terrestrial counterparts. That said, for the U.S. to capture 
the benefits of the marine energy resources, the level of 
Federal investment in early-stage marine energy technology and 
innovation must at least increase in line with comparative 
technology investments in our other renewable resources. Water 
power investment, including marine energy and hydropower, has 
consistently been 3- to 4-times lower than solar. This is 
despite the early stage of marine energy technologies, and the 
widely acknowledged importance of Federal investment at this 
stage of innovation to spur economic development.
    Thanks to the efforts of Congress over the past several 
years, the U.S. is starting to make significant and strategic 
investments in the Department of Energy's Water Power 
Technology Office to support research, development, and the 
commercial viability of a domestic marine energy sector. 
Looking forward, the Water Power Research and Development Act 
of 2019 is essential to providing a strategic direction, and 
authorizing the sustained funding necessary to accelerate the 
development of a domestic marine energy industry. Unlike wind 
and solar, marine energy technology developers do not currently 
benefit from any tech support mechanisms, such as the 
investment tax credit or the production tax credit. Funding 
from the DOE WPTO is the key, and only, mechanism to support 
U.S. technology developers competing against overseas companies 
that receive sweeter subsidies.
    Finally, as a faculty member at an institution of higher 
education, I wish to close with a focus on the urgent need to 
educate and train the next generation of energy leaders and 
maritime innovators. As the world becomes increasingly 
interconnected and resource stressed, it is the important role 
of universities, colleges, and training programs to develop the 
talentbase and workforce who understand the technological, 
environmental, and social codependencies needed for true 
innovation. This workforce is required now. It is my hope that 
the Water Power Research and Development Act of 2019 will 
provide the fundamental building blocks to ensure that we are 
able to create this next generation workforce.
    I thank the Subcommittee for your efforts to consider the 
opportunity to associate with the thriving marine energy 
industry in the U.S., and with that, I'm happy to answer 
questions.
    [The prepared statement of Dr. Robertson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you. Dr. Moore?

                 TESTIMONY OF DR. JOSEPH MOORE,

        MANAGER, UTAH FRONTIER OBSERVATORY FOR RESEARCH

       IN GEOTHERMAL ENERGY (FORGE), RESEARCH PROFESSOR,

                       UNIVERSITY OF UTAH

    Dr. Moore. Good afternoon, Chairman Lamb, Ranking Member 
Weber, and distinguished Members of the Subcommittee. My name 
is Joseph Moore. I represent the University of Utah's Energy 
and Geoscience Institute. I'm honored to appear before you 
today to discuss Project FORGE, an innovative geothermal energy 
research project funded by the Department of Energy in the 
State of Utah.
    The thermal energy beneath our feet is enormous. Some of 
this energy reaches the surface naturally through hot springs, 
like those found in Virginia, Arkansas, and Wyoming, but this 
is only a tiny fraction of the available energy. If we could 
capture even 2 percent of the thermal energy at depths between 
2 and 6 miles, we would have more than 2,000 times the yearly 
amount of energy used in the U.S.
    Natural geothermal systems require a source of heat, water 
to transfer the heat, and permeability to allow the water to 
carry the heat upward. Although we can drill deep enough to 
reach temperatures suitable for electric generation anywhere in 
the world, and inject water to transfer the heat, most areas 
don't have sufficient natural permeability to circulate water 
at the depths we require.
    Attempts to create enhanced, or engineered, geothermal 
systems were initiated by the Los Alamos National Laboratory in 
the late 1970s. More than a dozen attempts to create reservoirs 
by hydraulic stimulation followed worldwide, but none created 
commercial-scale reservoirs capable of producing more than a 
couple of megawatts of electricity. The Frontier Observatory 
for Research in Geothermal Energy, or FORGE, was envisioned to 
be an underground field laboratory where new technologies for 
enhanced geothermal system reservoir creation and operation 
could be developed. The Utah FORGE site was one of five 
locations in Utah, Idaho, Nevada, Oregon, and California 
originally considered for the laboratory.
    The granite rocks at the Utah site are representative of 
the geologic environments at many locations across the U.S., 
thus reservoir creation in Utah can provide a template for 
enhanced geothermal system development elsewhere. The site is 
located on State land near three conventional geothermal 
plants: A wind farm, a solar field, and a biogas facility. Can 
you think of a better place to create an enhanced geothermal 
system? I can't.
    DOE has obligated nearly $125 million to Utah FORGE for FY 
2020 to 2024. Fifty percent of the funds will be utilized for 
research. The remainder will be used for field operations and 
drilling. The technologies that will be developed are not 
limited to enhanced geothermal systems. New stimulation and 
drilling technologies will also improve the productivity in 
conventional geothermal systems and high temperature oil and 
gas plays by reducing the number of wells that must be drilled.
    In 2020 we will begin full deployment of the Utah FORGE 
laboratory. The centerpiece of the laboratory will be a pair of 
deep wells into rock with temperatures of 400 to 450+ F. One of 
the wells will be for injection, the other for production. The 
second well will be completed in FY 2023. Testing and 
demonstrated commerciality of enhanced geothermal systems will 
occur in the following 18 months. At the end of 2024, Utah 
FORGE will decommission the site, plug and abandon the wells, 
and bring the drill pads back to their original grade.
    The Utah FORGE site is a unique publicly owned and operated 
laboratory, and an essential stepping stone to commercial 
enhanced geothermal system development. Maintenance of the site 
beyond 2024 will provide a facility where new technologies can 
be tested at low cost in an ideal enhanced geothermal system 
environment. No alternative facilities currently exist in the 
U.S., and none are envisioned at this time. We strongly urge 
the Committee Members to continue their support of Utah FORGE 
and enhance geothermal system development in the U.S.
    Thank you for the opportunity to testify on Project FORGE. 
I am happy to answer any questions you may have.
    [The prepared statement of Dr. Moore follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Lamb. Thank you. Ms. Richards?

                TESTIMONY OF MS. MARIA RICHARDS,

                DIRECTOR, GEOTHERMAL LABORATORY,

        ROY M. HUFFINGTON DEPARTMENT OF EARTH SCIENCES,

                 SOUTHERN METHODIST UNIVERSITY

    Ms. Richards. Chairman Lamb, Ranking Member Weber, and 
Members of the Committee and staff, it is an honor for me to be 
here today, speaking with you. My name is Maria Richards, and I 
am the SMU (Southern Methodist University) Geothermal Lab 
Director. As a geothermal researcher, university program 
coordinator, and past president of the Geothermal Resources 
Council, I'll share with you ways to grow our country's ability 
to find innovative methods which use this Nation's geothermal 
base for a more resilient and diversified electric grid, plus a 
cleaner environment for generations to come.
    The House bill is similar to the Senate bill, the Advanced 
Geothermal Innovation Leadership Act, the AGIL Act, so I'll be 
referencing that today in my talk. It tells you what is 
helpful, but does not tell you why it's important. Using my 25 
years of geothermal experience, I will provide background on 
increasing our usage of geothermal resources, building projects 
connecting industries, and the significance of university 
research and outreach.
    The National Renewable Energy Lab's GeoVision Study 
provides a road map from today's western U.S. geothermal power 
production of 3.6 gigawatts to a deployment across our country 
of 60 gigawatts by 2050. It also estimates two million homes 
are heated and cooled by geothermal heat pumps today, with this 
number increasing to 28 million homes by 2050. That's 30 years 
away, yet now is the time to act because geothermal power 
plants, they take 7 to 10 years from conception to production, 
and even having enough installers for the geothermal heat pumps 
and their growth require time for local companies to grow and 
train employees. And to help create momentum for geothermal 
heat pumps, please support House Bill 3961, the Renewable 
Energy Extensions Act of 2019.
    Surprisingly, it is the oil and gas industry who 
comprehends the volume of untapped heat and fluid sitting idle, 
just waiting to be extracted. Oil and gas colleagues share how 
geothermal energy is considered their safety net because of how 
giant it is as a resource. We've learned the two industries are 
definitely different, yet complementary. The SMU Geothermal Lab 
is known for our outreach and bridge building conferences. 
These conferences bridge the geothermal industry with oil and 
gas, waste heat to power, desalinization, heat storage, and 
district energy systems, plus we've examined ways to cool and 
inlet temperatures of natural gas plants, and how to transition 
a coal plant to geothermal power.
    Currently there are no technologies able to use the 150 to 
185+ low-temperature produced fluids from our productive shale 
plays. The Southwest Research Institute is working with a small 
company to get to market a technology that could generate 
electricity from these produced fluids, and it could assist 
many States. Yet it may not come to fruition. Over the past 15 
years it has been exciting for me to participate as new 
technologies enter the market, only to learn the company is out 
of funds before a proper demonstration. The funding of small 
tech companies in small-scale, low-temperature demonstrations 
in our sedimentary basins, is a strong next step. These are 
plug and play, easy to adapt technologies to include if the 
United States is going to achieve widely sourced geothermal 
power from sedimentary basins.
    The House Bill and the AGIL Act are funding--arriving at a 
critical juncture for universities. It is a resource assessment 
allocation for the USGS (United States Geological Survey), yet, 
as Dr. Robertson mentioned, universities are important 
components of this. We have been the lead in collecting and 
assessing these data for decades. A broader initiative will 
provide essential funding for keeping faculty and researchers 
in geothermal exploration, while training students. Founding 
researchers in heat flow and geothermal resources are either 
already retired, or in retirement age. A geothermal fellowship 
program is another step, as part of training the next 
generation. Funding universities now is of utmost importance to 
preserve the greater technology transfer and knowledge in 
keeping us a world leader in the geothermal energy.
    The DOE's ability to fund universities, National labs, and 
companies allows all of us to work together in finding 
innovation, which shifts from the United States as a fossil 
fuel-dependent country to partnerships between industries, and 
a win-win-win for the fossil fuel industry, the geothermal and 
other renewable industries, and the public. Through Congress' 
consistent yearly funding, the geothermal industry can reach 
its full potential. Thank you for this opportunity to testify 
today.
    [The prepared statement of Ms. Richards follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Lamb. Thank you. And Mr. Cohan?

                 TESTIMONY OF MR. SANDER COHAN,

                     DIRECTOR, INNOVATION,

              ENEL GREEN POWER NORTH AMERICA, INC.

    Mr. Cohan. Chairman Lamb, Ranking Member Weber, and all 
distinguished Members of the Subcommittee, I appreciate and 
thank you for the opportunity to appear before you today. My 
name is Sander Cohan. I lead innovation efforts for Enel Green 
Power North America. I am part of a team within the Enel group 
to lead the deployment and commercialization of new energy 
technologies.
    I'm pleased to provide testimony in support of continued 
U.S. programs to foster geothermal and water technology R&D. As 
a longtime advocate for these technologies, Enel's innovation 
group focuses on issues of market deployment helping new ideas 
cross the so-called commercialization valley of death. As a 
company, we are interested in both incremental innovations that 
can improve existing technologies, and disruptive innovations 
that create entirely new opportunities. What is important to 
realize, that, instead of delivering on corporate venture 
capital, our mission is to serve as a catalyst and driver of 
energy innovation as an invention's first large industrial 
partner. The reason why I'm here today is that the programs 
described in the proposed legislation create the necessary 
preconditions to realize this mission. Without support from 
government, National laboratories, and inspiring startups, the 
full economic and social benefit and impact of geothermal and 
marine technology would remain out of reach.
    To give more context, the Enel Group is a multinational 
energy company, and one of the largest integrated electricity 
and gas operators. Enel Green Power North America, based in 
Massachusetts, is one of the largest and fastest growing 
renewable energy companies in the United States. To date we 
manage over 100 renewable energy plants in 24 U.S. States, with 
a capacity of just over 5 gigawatts, leveraging wind, solar, 
hydroelectric, and, of course, geothermal and marine. The 
company is currently the largest wind operator in Kansas, and 
the second largest in Oklahoma.
    With regard to geothermal and water power, Enel has a 
history of innovation in both. Italy is a birthplace of 
geothermal energy, with the development of the first commercial 
geothermal facility in Larderello, Italy more than 100 years 
ago. Today, in the U.S., we own and operate three binary cycle 
geothermal plants, distilled water and salt wells facilities in 
Nevada, and the Cove Fort plant in Utah, part of a global 
geothermal fleet that spans four continents. Enel's experience 
in water power, specifically ocean energy, is more recent. In 
the same way Enel manages a competency in geothermal, we also 
maintain a similar competency in marine energy research and 
development on both wave and tidal streams. Marine energy is a 
younger technology than geothermal, and the projects we have 
are largely in the development phase. Enel Green Power is 
focused on supporting companies to create and deploy 
foundational technologies to capture the energy produced by 
ocean waves. For example, we were one of the lead industrial 
partners in the Marine Energy Innovation and Research Center in 
Santiago, Chile.
    Looking forward, Enel's current innovation slate for 
geothermal through 2021 contains budget for roughly 15 new 
projects. This pipeline contains a broad range of technologies, 
from ways to streamline and improve plant operations, to data, 
analytics, and methods to evaluate and process seismic data, to 
hardware intensive activities, such as new drilling methods, 
and investment in, and support of, enhanced geothermal systems, 
such as those being tested at FORGE. In the United States, Enel 
continues to leverage its presence as a geothermal operator to 
improve the state of technology and increase its economic 
value. Three projects highlight our ongoing and future 
commitment: Our Stillwater Triple Hybrid Plant that contains 
geothermal, photovoltaic, and solar thermal technologies; our 
Cove Fort Plant that contains hydroelectric and geothermal; and 
our recent commitment to the University of Utah's Earth and 
Geosciences Institute.
    This is a way of saying that continued Federal funding in 
support of research, development, and deployment efforts is 
important. As Enel and other developers work to expand the 
footprint of geothermal energy, fundamental investment in 
scientific capital is essential to overcome substantial 
challenges. In order to remain competitive with other renewable 
energy sources, and serve as a viable resources, the programs 
being discussed today in today's hearing are essential. As a 
developer of technology, Enel's focus would be to expand and 
deploy these inventions, enhance geothermal systems, minerals 
recovery, and hybrid systems fostered under the investment made 
through this policy. Marine energy also deserves attention. 
Though my colleagues and I agree that more work is required, 
especially in the establishment of open ocean marine. These are 
key to bridging the gap between smaller scale university and 
naval sites and the commercial market.
    In conclusion, successful energy innovations are difficult 
to realize, especially ones like geothermal and water power 
technologies, they rely on require the development of new 
infrastructure, and the construction of capital-intensive hard 
assets. They require intense cooperation throughout the entire 
value chain, originating in fundamental research and 
development programs like the ones today to initiate the 
process of technology transfer, and continuing through the 
process of technology deployment and commercialization. My 
team, and the rest of Enel Green Power, look forward to 
cooperating with this network of government programs, National 
laboratories, and industry and related fields, especially oil 
and gas, to lower the cost of deployment, and realize 
geothermal and marine's full potential.
    Thank you again for allowing me this opportunity. My 
comments today and submitted testimony just begin to address 
this topic, and I look forward to fielding your questions.
    [The prepared statement of Mr. Cohan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Lamb. Thank you very much. We'll begin with our 
first round of questions, and I recognize myself for 5 minutes.
    Dr. Solan, there's been increasing discussion on our 
Committee all year, and back in Western Pennsylvania, where I 
represent, about emissions from the industrial and heavy 
manufacturing sectors, you know, sort of apart from the grid 
itself, and how we start to tackle some of those problems. So I 
was curious, is DOE's Geothermal Office looking at this problem 
at all, and how you could provide heat for sort of very serious 
heavy manufacturing, whether it's steel or other similar 
processes?
    Dr. Solan. We are. The Geothermals Office has actually 
started a program for looking at feasibility of deep direct use 
for industrial heat processes. So we have a number of studies 
that represent a number of use cases in a diversity of regions 
around the U.S. I believe that there's six or so, and I think 
two are in the Appalachian Basin. So they're looking at various 
processes, and trying to take a look at innovation in these 
areas. So whether it's agriculture, or a little bit higher 
temperature processes, but still low temperature for industrial 
processes in east Texas. We are just finishing those up, and 
the Appropriations Committees have taken an interest in doing 
an eventual demonstration, but we're not quite at demonstration 
stage yet, so we are also looking at opportunities in more 
design engineering as a possible next step.
    Chairman Lamb. Is there any particular industry, or sector, 
or type of manufacturing, that would be the most promising from 
the early studies?
    Dr. Solan. That I would have to get back to you on, but I 
know agriculture, paper drying, these are the types of 
activities that a number have looked at, especially with the 
low temperature at this point.
    Chairman Lamb. OK. Are you coordinating with the Advanced 
Manufacturing Office on any of that, or do you know if they're 
engaged in this same line of activity.
    Dr. Solan. In these activities, I don't believe so. I'd 
have to get back to you. But we are engaged with the Advanced 
Manufacturing Office (AMO) with geothermal on a number of 
activities, one of which is with AMO and the Critical Materials 
Institute with opportunities to harvest lithium from geothermal 
brines. That's an area. And we are also in discussions with 
them on taking a look at advanced manufacturing for specific 
geothermal mechanisms and parts, et cetera. So we're taking a 
look at that as well.
    Chairman Lamb. OK. Thanks. Ms. Richards, you highlighted 
the possibility of retrofitting aging coal plants for 
geothermal. Has that been tried anywhere, or is it more sort of 
in the idea phase? Could you just kind of elaborate on that a 
little bit?
    Ms. Richards. Yes. The idea of transitioning a coal plant 
to geothermal is the ability to do it over a long period of 
time, so it'd be 5 to 10 years, most likely, and the best cases 
have started to be looked at. Primarily Susan Petty is the 
person who's spearheading this, and she has looked at, and her 
team, at ones in Oregon and Washington, and then also in Texas, 
because of our aging Texas coal plants. And what we have 
focused on in Texas was the idea that we could overlap with the 
oil and gas industry, and their wells. And the idea is that you 
would use the same--they already have water, they have 
infrastructure, they have the turbines, they have a workforce. 
And so the goal would be--is to use that same workforce, re-
train them, and use the same grids, and things like that, and 
slowly transition from electric power from coal to geothermal 
being the power source.
    Chairman Lamb. Do you know sort of where on the spectrum 
they are toward a demonstration-type activity, or----
    Ms. Richards. Susan has talked with people in Montana as 
well, so there's a coal plant in Oregon that has been--
specifically been in discussion with her. So those are the two 
States that have been closest to discussing it. So in terms of 
the blueprints that would be getting to that point, I would 
need to go back to her and give you more information.
    Chairman Lamb. Great, thanks. And just wanted to ask one 
question for the group. I don't know if Dr. Solan would be the 
one, or anyone, but I'm curious about hydropower as it gets 
built onto existing infrastructure. I think a lot of us, given 
the difficulty of getting infrastructure legislation through, 
are skeptical about truly large-scale dams in a lot of parts of 
the country. But in Pittsburgh, for example, on the Allegheny 
River, the University of Pittsburgh has helped develop adding 
hydropower capacity to an existing lock and dam that we have on 
the river. And it's small, but it's going to supply about a 
quarter of the electricity for the University. Are you aware of 
other efforts underway to do similar things like this on our 
existing infrastructure?
    Dr. Solan. Yes. There's actually about 80,000 unpowered 
dams that provide a great opportunity. Even if we could do just 
a small number of those, or a small percentage, it would 
actually provide a lot, in terms of reliability and resiliency. 
So we are doing activities in these areas. WPTO actually looks 
at, in a couple areas, low head hydro, standard modular hydro. 
So these are the type of the areas where, if you put in 
smaller, modular, cheaper turbines, and--it would make a lot of 
sense because in the past--hydro's an interesting industry, 
because when dams were built a very long time ago, if it was 
for power, folks just optimized it to deliver as much energy as 
possible, and then they thought about the environment after 
that. Now that we're looking at in stream reaches and low head, 
we're actually trying to design it as an integrative function 
across all the needs that you need to meet. Instead of making 
it unique to one situation and one spot, as we did many years 
ago, to get that last kilowatt hour out of every project.
    For the most part, a standard modular design would work 
many different places, and it would actually bring the cost 
down a lot, so we expend a lot of activities in that particular 
area.
    Chairman Lamb. Great. Thank you, and I'm out of time. I'll 
recognize Mr. Weber for 5 minutes.
    Mr. Weber. Well, where do we start? Thank you. I'm going to 
go back to you, Deputy Assistant Secretary Solan, for a minute. 
As you mentioned in your prepared remarks, the future of the 
electric power grid may look very different than it does today. 
Do I recall correctly there are nine grids in this country, 
electric grids? Do you know that number?
    Dr. Solan. I don't. It depends on how you define the--
whether it's reliability, or organization area, or 
interconnections, but there's a lot of different market 
structures, and--whether it's regional, transmissional, or----
    Mr. Weber. I'm thinking there's nine grids, and, of course, 
Texas----
    Dr. Solan. Um-hum.
    Mr. Weber [continuing]. Has ERCOT, Electric Reliability 
Council of Texas----
    Dr. Solan. Right.
    Mr. Weber [continuing]. Which is about 85 percent of the 
State's in its own grid. So you say that it's going to look 
very different, however, no matter how those grids evolve, we 
understand that many of today's challenges will still be there 
in the future, meaning we will still need to address grid 
flexibility. You said connectability, how you define a grid, 
and I would add variability, while we want to ensure the 
reliability and the affordability of energy resources. So, as 
we seek to decarbonize the electric power sector, we will need 
to advance a diversity of clean energy resources in order to 
encourage the development of innovative energy technology, 
while ensuring at the same time minimal cost increases for 
American consumers, you follow me? OK. I'm getting to my 
question.
    As the Deputy Assistant Secretary for the Office of 
Renewable Power, how do you propose to balance all of these? 
First we have to define those grids. How do you balance those, 
affordability, reliability, all at the same time?
    Dr. Solan. So the--for--Assistant Secretary Simmons has 
made one of his three core pillars on affordability, so 
everything that we do is trying to bring the cost down, and the 
efficiency. I mentioned the GMI before. This is one of the 
efforts that we're doing to make sure that the grid is both 
reliable and resilient, and that we're bringing costs down to 
make it more affordable as we move forward. But the grid is 
definitely transitioning over time, and how we use electricity, 
the system's becoming--the need for flexibility and speed is a 
lot greater than----
    Mr. Weber. Is absolutely increasing. How often do you 
coordinate with the Advanced Research Projects Agency Energy, 
ARPA-E, in your work with the Geothermal Technologies Office 
and the Water Power Technologies Office? Do you get to 
coordinate with them?
    Dr. Solan. Yes, we do. Actually, for each area, the ARPA-E 
has actually had some calls related to enhanced geothermal 
systems, with the input of the Geothermal Office, to make sure 
that the space that they were in was complementary to the work 
that we were doing, and all of our applied research offices in 
renewable power actually worked directly with ARPA-E on those, 
and in many cases we actually sit on each other's panels.
    Mr. Weber. And the Office of Science as well?
    Dr. Solan. The Office of Science--we do a lot on the 
storage area, which does include hydro. We do a lot in EERE 
generally to do with battery chemistries, so that's not only in 
renewable power, but that's also in the Vehicle Technologies 
Office as well. But we also work on that with grid storage. So 
that's Assistant Secretary Simmons' second pillar, is on 
storage.
    Mr. Weber. OK. I'm going to jump over to you, Dr. Moore. In 
your prepared testimony you highlight the various conditions of 
your research site that make it an ideal location for DOE's 
first FORGE field laboratory. So how unique are these 
conditions, number one, and the second question, in your 
opinion, how important is it for this kind of experimental 
geothermal facility to represent general geologic conditions 
across the entire country?
    Dr. Moore. The DOE established five criteria for an ideal 
enhanced geothermal system. One was temperatures of 175 to 225 
Celsius degrees at 1-1/2 to 4 kilometers. The second was the 
rock type should be granite. Third was no environmental issues. 
Fourth was low seismicity, and fifth was no connection to an 
existing system, so a Greenfield system. We looked at sites 
across the country, and Utah is not unique. Granite is the 
country rock. Here's an example of one, what it might look 
like, and the permeable fracture in it. Granite is found across 
the country. In fact, I would suggest that we could drill here, 
beneath our feet, to find conditions that are similar. Probably 
drill a little deeper, but we would find very similar 
conditions here.
    Mr. Weber. Mr. Chairman, I have about 17 more questions, 
but I guess I'd better yield back. Thank you.
    Chairman Lamb. And only 15 more seconds, which is a shame.
    Mr. Weber. I know.
    Chairman Lamb. Now recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the Chairman. I thank the witnesses. 
I really liked your testimony. It's encouraging, it's positive. 
Thank you for that. Dr. Robertson, you mentioned a capacity 
potential for 4,300 terawatt hours. That's per year, right?
    Dr. Robertson. Yes, that's correct.
    Mr. McNerney. And how much of that is marine power?
    Dr. Robertson. All of those would sit within the sort of 
broader space of marine power. Wave would account for about 80 
percent of that. The numbers were, if I can bring them back 
up----
    Mr. McNerney. Well, I was kind of driving at a question. 
How much impact would that have on the coast, if you took that 
much energy out of the waves and the----
    Dr. Robertson. Goodness, this is, like, a bulk resource. 
It's not feasible to block the whole coastline to generate that 
much electricity, so it's really about finding locations where 
you understand the implications of the other economic 
activities that are happening in that location. In the State of 
Oregon, and the test facility we are building there with Oregon 
State University, we've had extensive engagement with the crab 
fishery, the Dungeness crab fishery. So you have to account for 
all these. It's a large marine special planning exercise to try 
and identify high priority locations, and use those as your 
first deployment sites.
    Mr. McNerney. Thank you. Dr. Moore, talking about injection 
and production of geothermal, how about the wastewater? How 
does the wastewater production from geothermal compare with the 
wastewater production from fracking, for example?
    Dr. Moore. These are completely two different processes. In 
a fracking environment, water is produced, along with oil and 
gas, and that water has to be removed, it can't be reinjected. 
So, in the oil and gas industry, that water is taken somewhere 
else and injected into rocks that are already saturated with 
water. And occasionally some of those fractures in the basement 
will slip, and we have earthquakes. Geothermal doesn't have 
wastewater. We inject, and we produce. So, in a natural 
geothermal system, the water is already present in fractures 
like these. That water is produced, and then it is re-injected 
back into the reservoir. In fact, by law it's----
    Mr. McNerney. So you re-use the wastewater.
    Dr. Moore. Yes. It's renewable in that----
    Mr. McNerney. All right. Thank you. Ms. Richards, what 
about some of the extra benefits of this wastewater? For 
example, in Southern California, there's efforts to couple 
geothermal with critical mineral production.
    Ms. Richards. Yes. In fact, the lithium industry, there's a 
company from Australia who is working on the largest geothermal 
power plant that will exist in the United States just to 
extract lithium. So there's a lot of production there. The 
wastewater, though, also in our sedimentary basins, has a huge 
opportunity for us to gather heat, and create small distributed 
energy systems, as well as larger EGS systems. So even in the 
central United States, this wastewater has opportunity to be 
productive.
    Mr. McNerney. OK. Thank you. What about the role geothermal 
plays in base load, and providing additional grid storage? What 
are some of the benefits of that part of geothermal energy?
    Ms. Richards. So, with storage--and solar makes a lot of 
heat, and so--but if it's at night, it gets cool, so the goal 
is to take that hot solar fluid that--solar can heat fluid. 
That fluid is then put into wells, such as abandoned oil and 
gas wells. Those wells then become a storage which contains 
that heat, that then is brought back to the surface, and then 
is used during the day for needs--for the grid, or to offset 
the solar.
    Mr. McNerney. OK. Dr. Robertson, you highlighted in your 
testimony the need to educate and train the next generation of 
energy technicians and engineers, and so I couldn't agree more. 
What role can our universities play to enhance that situation, 
to improve that situation?
    Dr. Robertson. Thank you for that question. That is the 
fundamental role of the universities, and the colleges, and our 
training programs across the country, to do that. You know, we 
facilitate the workforce that goes into our fantastic National 
labs, and into the governments, and into our private companies, 
and it is our role to take young raw talent, educate them, 
teach them to be innovators in that space, and then put them 
into these different companies or institutions. And in the 
marine energy space, there is no lack of interest in those new 
recruits. Fundamentally our issue generally is funding to do 
the research and the training to put them through so they can 
do it, so we can put them into the labs, put them into 
companies, and put them into government.
    Mr. McNerney. So Federal grants, and so on, are very 
important in that process?
    Dr. Robertson. Exceptionally important. Both the grants and 
the vision associated with them so that we can make sure we 
attract and maintain the best faculty members within the 
universities to focus their research enterprise in this space 
so that they aren't attracted by something else where there is 
research and investment, so----
    Mr. McNerney. Thank the Chairman for the indulgence, yield 
back.
    Chairman Lamb. And recognize Mr. Baird for 5 minutes.
    Mr. Baird. Thank you, Chairman Lamb, and Ranking Member 
Weber, and I want to thank all the witnesses for being here 
today, and sharing your knowledge with this Committee, because 
we're in a constant search for reliable, cost-effective sources 
of energy. So I'm going to start with Ms. Richards. In your 
prepared remarks, you described how expanded geothermal energy 
generation could benefit rural communities, and ease the 
pressure placed on cooperative electric facilities. District 1, 
that I represent in Indiana's Fourth congressional District, is 
largely rural. So could you expand on how increased geothermal 
energy generation could benefit these rural districts, and our 
rural cooperatives?
    Ms. Richards. Yes. Geothermal, because it's everywhere--as 
Joe said, it's right below us even, right here, has the ability 
to build small or large, depending on the high-temperature or 
low-temperature resource that is there, but then to either 
build electricity, or offset the need for electricity through 
something as basic as a geothermal heat pump for a home, or a 
building, or a school. But it also has the ability to then 
stabilize the grid with distributed, and with the storage of--
like we talked about earlier. And so it's the idea that 
through--especially sedimentary basins, and being in Illinois, 
there's a sedimentary basin there that could be tapped into for 
a distributed system.
    Mr. Baird. So would any of the other witnesses care to 
comment on that question about the impact in rural areas?
    Dr. Robertson. I couldn't speak to the geothermal aspect of 
that question, but I think it's important to highlight the 
multitude of scales that both of these technologies can work 
at, whether you're using a heat pump for a single community, or 
whether you're developing a large scale facility to power an 
electric grid, I think the same opportunities exist on the 
water power technology side. There the DOE has funded a 
fantastic project to put an in-stream hydrokinetic turbine in 
Igiugig, Alaska to provide power to a community that's pretty 
much inaccessible most of the winter, and 100 percent relying 
on diesel generation. And these are the sorts of technologies 
that you can create smaller scale and deploy for rural and 
remote communities. Additionally, it's not just coastal 
communities that also get to benefit from this. There are also 
communities that are landlocked, through technology innovation.
    Dr. Solan. So where there's current expression, and obvious 
resources, for geothermal for conventional hydrothermal 
systems, these tend to be in pretty rural areas. So these 
provide important jobs for specific areas, whether it's in 
parts of Wyoming, or Utah, or Idaho, like Raft River, or Neal 
Hot Springs in eastern Oregon. These tend to be communities 
where it's an important employer. And also it's an innovative 
technology, so it does attract talent also from outside the 
region.
    Dr. Moore. May I follow along with a comment? FORGE Utah, 
in fact, is located near a community of 1,400 people. We employ 
the local residents. We employ the students at the local high 
school. They're excited about renewables. They take that 
information to their parents. We provide jobs for the 
neighboring towns. So it's an important resource, and heat 
pumps--in terms of rural communities, heat pumps are not 
geologic-specific, and so they can be used anywhere, and they 
are being used. Electric and direct use require population 
centers, but, with enhanced geothermal systems, I think that's 
a viable alternative for rural communities as well.
    Mr. Baird. Thank you very much, and I yield back the rest 
of my time.
    Chairman Lamb. Thank you, and Mr. Foster for 5 minutes.
    Mr. Foster. Thank you, Mr. Chairman. Thank you to our 
witnesses. As we put more renewables on the grid, that 
obviously makes a bigger premium on energy storage, which is 
something I've been worried about a lot. I'm proud to have 
introduced what's called the Better Energy Storage Technology 
Act (BEST Act), which now has 38 bipartisan co-sponsors. It 
would reauthorize and reorient the DOE's grid scale storage, 
research, development, and demonstration efforts around 
ambitious technology goals to facilitate breakthroughs. And the 
BEST Act directs the Secretary of Energy to establish moonshot 
goals of up to five demonstrations of grid scale energy storage 
that will meet aggressive commercialization targets for cost, 
performance, and durability, and so I have several questions 
about that.
    First, could you elaborate on how you see the horse race 
between the different things like pumped hydro, and so on, and 
how they are going to compete against the rapidly falling 
prices of batteries, for example, and where you think that's 
going? Dr. Solan?
    Dr. Solan. So right now hydro actually accounts for, in 
pumped storage, 95 percent of our actual storage for the----
    Mr. Foster. Currently the winner, right.
    Dr. Solan [continuing]. Which a lot of people don't know, 
but it's kind of taken for granted. It's also a great example, 
thinking about how pumped storage operates, how the grid's 
changing, because it used to be you'd pump the water at night, 
when rates are low, and there wasn't much demand, and then, as 
load ramped up during the day, and there was a peak, you'd let 
the water down, and you'd produce some power. Now things are 
changing, actually. So we have a couple studies that WPTO is 
working on with Argonne National Laboratory to take a look at 
some of these issues, and the preliminary results are actually 
showing, from actual pumped storage facilities, that that's not 
the way that they're necessarily operating anymore.
    So, for example, in California, where there's a lot of 
solar, and there's a lot of generation at certain points in the 
day, it turns out that, for arbitrage, and, based on the rates, 
that they might actually pump up during the day, and then have, 
like, a sort of a head-and-shoulders pattern, where, as solar 
comes down, then you start letting the hydro out. So it's 
actually illustrating how the grid is changing as we get more 
variable resources with that.
    A lot of companies are looking at grid-scale storage in the 
near term with lithium ion. It depends on what their targets 
are, as you were saying, if you set different goals for 
different, say, durations of power, or different materials. So 
DOE Office of Electricity is actually looking at batteries that 
are for grid scale, but don't necessarily use----
    Mr. Foster. Yes. Well, the legislation we've introduced is 
deliberately technology neutral. I was wondering how it was 
likely to end up. And, you know, Ms. Richards, you mentioned 
the idea of just pushing the heat back in the ground, and maybe 
then cycling that, which is a concept I wasn't familiar with. 
I'd presume that does not ramp on and off very rapidly, or does 
it?
    Ms. Richards. It could be done daily.
    Mr. Foster. Daily, yes----
    Ms. Richards. Right.
    Mr. Foster [continuing]. But not when a cloud goes over the 
solar array? It's not going to respond to that time scale, I 
would assume?
    Ms. Richards. I would agree with that. Yes.
    Mr. Foster. So it may well be that optimized storage will 
have a mixture of many technologies. Are pumped hydro--is that 
essentially a mature technology, that turbines have been 
designed by geniuses back in the 1930s----
    Dr. Solan. There actually are some new types of designs 
that are coming out, but a lot of this was built a long time 
ago.
    Mr. Foster. Yes.
    Dr. Solan. And one thing that we're discovering on the 
innovation side that is not necessarily on the actual power 
production side, the Water Power Office sponsored a FAST Prize 
to commission pumped storage hydro faster, and a couple of the 
winners recently--they were actually tunneling and construction 
companies who said, this is not the way we would do things 
today. We could reduce the costs with these technologies that 
we've been developing for different types of industries. So 
that's where some of the innovation is heading.
    Mr. Foster [continuing]. Underground reservoir is 
potentially on flat areas, like the 11th District----
    Dr. Solan. Yes, and there are some innovative sub-surface--
there's closed loop, which is not connected to natural hydro 
systems.
    Mr. Foster. OK. Dr. Moore, when I recall last looking at 
enhanced geothermal, there were problems that were--the 
development of hydraulic shorts between the injection and 
production wells induced seismicity, corrosion of the produced 
water causing lifetime problems, and then just the difficulty 
of dumping the heat. You'd obviously need a nearby river, or 
some sort of--you need a source of cold, as well as a source of 
heat, to get your Carnot engine, what's the status of those?
    Dr. Moore. We can take them one by one. In terms of the 
thermodynamics, that's been resolved. We can use single flash, 
double flash, multiple turbine systems for electric----
    Mr. Foster. OK. I was referring to, you know, you have a 
production injection and an extraction well, and that you'll 
get one channel carrying all the burden, and you won't really 
extract heat from the whole rock mass.
    Dr. Moore. That's a potential problem, or a challenge, in 
any geothermal system. We're looking at Utah FORGE in a 
different way. Most of the--in fact, all of the EGS projects 
prior to this have looked at large sections of open hole, and 
tried to fracture those large sections, and in that case you 
will tend to get a single fracture that controls fluid flow. 
We're actually taking a step back and using oil and gas 
technology. So, at the FORGE site, we'll be casing the well, 
and then using isolation equipment to isolate small sections of 
the well, stimulate those sections behind casing. In fact, we 
had the first test in April. It was very successful. So this is 
a mechanism to avoid that short circuiting.
    Mr. Foster. OK. And, Mr. Chair, could I have another 30 
seconds?
    Chairman Lamb. Yes.
    Mr. Foster. All right. Yes, so the corrosion for the rock 
types you're looking at, is that not an issue?
    Dr. Moore. Corrosion is not an issue in geothermal systems. 
It tends to be a problem in the Salton Sea, with the solid 
contents of 300 thousand parts per million plus, and the fluids 
are acidic. In most geothermal systems, fluids are benign, and 
corrosion is not an issue.
    Mr. Foster. OK. And then, finally, the location, do you 
need a river nearby to dump the heat? Or what is the cold 
source of----
    Dr. Moore. No, you can't dump the heat. This is a 
recirculating system, and so the fluid that comes through the 
turbine----
    Mr. Foster. But you need a Carnot-cycle engine going from 
hot to cold, and----
    Ms. Richards. Actually, what I'm understanding is--in our 
binary technology systems, that those systems have a hot and 
cold side, and so the hot fluids coming out of the Earth go 
back down, and get re-injected. But in order for the binary 
surface part to be able to have that Carnot difference, you 
have the cold source, which is either air cooled, or that's 
where the river comes in, or the idea of some sort of water 
source at the surface that is a cold--to create a difference in 
temperature.
    Mr. Foster. Right. OK.
    Ms. Richards. But not at a large power plant.
    Chairman Lamb. I may just have to stop you there so we can 
recognize Ms. Bonamici, and thank you for your patience.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, for allowing me to participate as a full Committee 
Member, but not a Member of the Subcommittee. I am so glad I'm 
here today. This is a great discussion. Thank you to the 
witnesses. The ocean covers more than 70 percent of the surface 
of our planet, and we know that the waves, and currents, and 
tides can be used as a plentiful renewable resource. And as we 
transition to a clean energy economy, we need to recognize that 
potential of marine energy. According to the U.S. Department of 
Energy, there's enough kinetic energy in waves and tides along 
the U.S. coastlines to meet a significant part of our Nation's 
power, and Dr. Robertson thank you for clarifying that in your 
testimony--reinforcing that.
    Oregon is at the front of marine energy, thank you for 
recognizing that, with Dr. Robertson, you being here today, and 
it's in large part because of the leadership of Oregon State 
University, the Pacific Marine Energy Center, and pioneering 
businesses like Vigor, one of our great shipbuilders in 
Portland. Last month I had a chance to see the ocean energy 
device Vigor built in collaboration with the Marine Energy 
Center before it before it got tugged off into the Columbia 
River, and it's on its way to the coast of Hawaii. It wasn't 
until I was actually standing in front of it, and actually got 
to climb onto it and explore it, that I understood and grasped 
the scale of this resource, but also the potential. 
Importantly, we can recognize that efforts to extract power 
from moving water can be done without jeopardizing the 
integrity of marine environments. And I know, from representing 
the north coast of Oregon, we can get that done.
    We know the potential of marine energy, and Federal 
investment can help unlock it. I'm continuing to lead my 
colleagues in advocating for robust funding for the Department 
of Energy's Water Power Technologies Office. This funding 
supports the leading research and development efforts at the 
Pacific Marine Energy Center, but will also help efforts to 
establish a wave energy test facility off the coast of Oregon. 
I'm also pleased to be co-leading the Marine Energy Research 
and Development Act with Congressman Deutch from Florida. Our 
bill will accelerate the introduction of marine energy 
production in the United States.
    So, Dr. Robertson, you mentioned in your testimony--you 
talked about how the development of marine energy technologies 
is a challenge, so can you talk about the current barriers for 
the demonstration of technologies, and how Congress can better 
support these efforts to make sure that marine energy doesn't 
fall within that commercialization valley of death? We want it 
to be deployed at scale.
    Dr. Robertson. Thank you very much for the question. I 
think there's a host of ways that, through supportive funding, 
and through collaborative efforts between the National labs, 
the universities, and industry we're looking at these questions 
of how do we avoid the valley of death, and how do we get at 
some of the hurdles? So, first, working in the ocean is just 
more expensive. You need to use vessels, you need to wait for 
the waves to die down, you need to be able to access the ocean. 
It's a lot more expensive than having a pickup truck, and 
driving out into a field, and testing a wind turbine. It just 
takes longer. There are seasonal effects as well. Off the coast 
of Oregon, there is about 6 months of the year where we would 
not be able to access it. So it does take longer to do this 
innovation, but we are achieving significant successes, the 
ocean energy buoy on its way to Hawaii being one of those 
examples.
    The development of the PacWave test facility off the coast 
of Oregon is a significant step in that direction. It provides 
a baseline, or an environmental impact, of marine energy. It 
provides a final demonstration site for U.S. technology 
developers to prove out their products before selling them into 
the domestic market and internationally. It allows us to 
compete with our European partners, who are also active in that 
space. So it's a big part of the effort as we go along.
    The other thing I think--one of the biggest hurdles we 
continue to face in this space is going through the 
environmental permitting process, but there are opportunities 
of great collaboration. In that realm, I've got to acknowledge 
the efforts of Dr. Andrew Copany of PNNL, the Pacific Northwest 
National Lab, who writes, for the International Energy 
Association's Ocean Energy Systems Report, ``State of 
Science,'' where are we in this space, so that we can start to 
work with regulators to accelerate the development----
    Ms. Bonamici. I'm going to try to get another question in 
the remaining time.
    Dr. Robertson. Sorry.
    Ms. Bonamici [continuing]. No, that's OK. I want to really 
focus on how Congress can better support the development, but I 
appreciate that you talked about the holistic view of the 
development pathway. So what are the advantages of 
partnerships, and, based on your understanding of the Water 
Power Research and Development Act discussion draft----
    Dr. Robertson. Um-hum.
    Ms. Bonamici [continuing]. Are there additional resources 
that the centers would need to thrive and compete with other 
energy sources?
    Dr. Robertson. Yes. You know, I think we have a great 
collaborative model, with the Marine Energy Centers 
representing the academic institutions, with the National labs 
being actively involved. With the industry being part of the 
sector, it's very collaborative. This isn't a competitive 
industry. This is one where we all identify collaboration as 
the only way for us to move forward.
    I see one of the hurdles right now, as my previous comment 
said, was training the workforce to enter these National labs, 
enter these industries, so they can continue to thrive. We need 
to make sure that the smartest, the brightest people end up in 
the space, and drive the innovation pathway, and do it quickly. 
So it's the combination of the training to get the people into 
the industries, and providing the infrastructure to allow them 
to test quicker, test cheaper, and test more rapidly.
    Ms. Bonamici. Terrific. As a Member of the Education and 
Labor Committee, we're working on that as well, from that 
perspective. Thank you again, Mr. Chairman and Ranking Member. 
I yield back.
    Chairman Lamb. Thank you very much. Mr. Cohan, in your 
testimony you talked a little bit about the role that you all 
play in investing technologies that have not been proven to 
work as a first of a kind demonstration, but don't yet have the 
capital and infrastructure to move beyond that. So I was kind 
of hoping you could maybe elaborate for us a little bit on your 
theory of where the government is best involved here, and where 
it's not, particularly as you get closer toward demonstration 
scale. What's the balance between government and private sector 
involvement? Where have you seen us work well together, where 
do you think we should be doing more, or just doing better?
    Mr. Cohan. You know, I think that there are opportunities 
all across the value chain. I think when we think about the 
commercialization valley of death, and sort of the barriers to 
commercialization, or the technology valley of death, it's 
actually a series of mini-valleys. There's a series of pitfalls 
all the way down and all the way back up that I think would 
benefit from support from government services. I'm glad we're 
discussing Vigor and the ocean energy device. I think they make 
a good example.
    Principally, I think there's a number of ways. One is, you 
know, I think in terms of supporting programs for partnerships 
between large industrials and startups, government has a larger 
and broader view. But I think more importantly, government has 
a way of supporting the groundwork for these things to happen. 
So not just the development of technology, but development of 
infrastructure around these technologies. The creation of, for 
example, in the marine energy business, onshore heavy industry 
to build the infrastructure to build offshore devices. I think 
this is really important from an education standpoint, I think 
it's important from a skills standpoint, and it's important 
from a technology and infrastructure.
    The ocean energy device, for example, is enormous. You 
can't build that every day, and you can't build that in your 
backyard. And so support for, you know, and then support for 
that can come from any number of ways, from, you know, a loan 
guarantee program to specific challenges and programs to focus 
and develop industries around technological advancement.
    Chairman Lamb. Do you think loan guarantees have proven to 
be an effective method for enlarging some of these projects?
    Mr. Cohan. They are a method I would say. I would say that, 
you know, the idea here is not to specifically mandate a 
technology, because I think there are different needs, and 
different ways, and it's very hard for anybody to see in the 
future, but I think the role here is to create the bandwidth, 
and the environment, and the space for industries, and National 
laboratories, and startups to work together. And so that can 
be, you know, everything as light, as I said, you know, a water 
power challenge, but it can also be specific programs to drive 
partnerships into a marketplace, or create a marketplace in 
industry.
    Chairman Lamb. Thank you. That's very consistent with what 
we've heard many times this year. And with that, I yield to Mr. 
Weber for 5 minutes.
    Mr. Weber. I thank the Chairman. 5 minutes is never going 
to get it, but we'll start. To all the witnesses, when it comes 
to advancements in water and geothermal power technologies, how 
important, or have you considered is it important, the role of 
international collaboration, first question. If so, who are our 
main international collaborators in this space? And, third, who 
are our competitors? Dr. Solan, I'll start with you.
    Dr. Solan. That's a great question. In terms of geothermal, 
we've actually been very active in working with New Zealand. 
New Zealand's been helpful in supplying data for us to actually 
do some machine learning AI (artificial intelligence) type 
projects, and we have an agreement with them. But the 
Geothermal Office is also working directly through Geothermica, 
which is working with the EU, and essentially leveraging both 
resources to provide some shared projects. So we've actually 
been working with them, and they've been----
    Mr. Weber. So is it important we've got collaboration with 
those? Who's our competitors?
    Dr. Solan. From what I understand, of course, China is 
pursuing all areas of energy.
    Mr. Weber. I'm sure they're going to convert their coal 
plants to geothermal.
    Dr. Solan. I did want to mention, though, also on the water 
power side, they're very involved internationally, and we're 
actually hosting, for the first time ever in the U.S., an 
international conference next year related to marine and ocean 
energy, and that's a great opportunity for the U.S. to show 
leadership.
    Mr. Weber. Let me jump over to Dr. Robertson. Is it 
important, international collaboration?
    Dr. Robertson. Without a doubt. It's key. You know, we need 
to leverage every dollar in every part of the world to 
facilitate the development of this industry, and there are huge 
lessons learned--so over the past year. I've traveled to our 
main competitors and collaborators, if we count the EU and 
Australia. There are other countries who are spending 
significant dollars in this space. I would say the U.S. plays a 
leadership role through the Water Power Technologies Office, 
understanding that we need to open the aperture of what we 
consider marine energy to do.
    Mr. Weber. I need to move on. Dr. Moore, is it important?
    Dr. Moore. It's critical, especially in this enhanced 
geothermal environment. These are extremely expensive 
experiments----
    Mr. Weber. OK.
    Dr. Moore [continuing]. And we need to leverage what we 
can. Right now we are working closely with China, who has their 
own EGS experiment----
    Mr. Weber. Are you afraid they will steal our technology?
    Dr. Moore. There's no technology to steal here. We need to 
learn how to do this----
    Mr. Weber. We already know how to do all this.
    Dr. Moore. I wish we did.
    Mr. Weber. OK. That's what I'm afraid they're stealing from 
us. Ms. Richards, how about you? Is it important?
    Ms. Richards. Yes, in terms of China. They're the ones who 
developed the first oil and gas field into geothermal----
    Mr. Weber. OK.
    Ms. Richards [continuing]. So they did it before Texas.
    Mr. Weber. Well, we need to steal--I mean we need to talk 
them about that technology.
    Mr. Weber. Mr. Cohan?
    Mr. Cohan. I think international collaboration is critical, 
but that's because I'm biased because my job is 100 percent 
about international collaboration.
    Mr. Weber. OK.
    Mr. Cohan. I'm the link between our U.S. and Italian 
operations.
    Mr. Weber. Yes.
    Mr. Cohan. You know, thinking about, you know, 
collaboration versus competition, there are more projects than 
money or people right now, and so, you know, there's only 
outside, and there's only collaborative outside. The reason why 
we're operating in Chile is because there is a positive effort 
from the Chilean government to build a marine energy business 
there.
    Mr. Weber. I need to move on, if I may, so let me talk 
about the wave energy that you talked about. I'm from a coastal 
area. I have the first three coastal counties of Texas, 
starting at Louisiana, that other foreign country, and then 
going down southwest. So is there any thought to when you have 
that kind of a structure, and you harness the power of waves, 
does it reduce the amount of erosion on that beach? Has that 
been looked at, do you know?
    Mr. Cohan. I don't have any specific expertise in that 
area, but I can find out for you.
    Mr. Weber. OK. One would assume that if you harness the 
power of the waves, and slowed them down, the surfers might 
complain about that, right? They have to get out in front of 
that barrier to do the surfing. But that's something 
interesting, if you can get back to that. Let me----
    Mr. Cohan. I suppose--to that end, I suppose it depends on 
the technology. It depends on how far out in the ocean you're 
talking about.
    Mr. Weber. Sure.
    Mr. Cohan. So, you know, a lot of wave energy technology 
that we develop, we're pretty far out there.
    Mr. Weber. Well, so what's the distance? You're going to 
have the infrastructure, the transmission lines, as it were, 
albeit buried, you know, beneath the waves on the ocean floor. 
How deep's the ocean floor, how big is the line, what's the 
miles? What's the furthest out you all have contemplated going?
    Mr. Cohan. We haven't gone too far out. As I said, these 
technologies are sort of in early stages, but you're talking 
about in the hundreds of meters to kilometers.
    Mr. Weber. OK.
    Mr. Cohan. So, you know, when you're talking about the 
Gulf, you know, we have offshore rigs that are about the----
    Mr. Weber. Yes. We're going 20 miles to 40 miles out----
    Mr. Cohan. Right.
    Mr. Weber [continuing]. With oil export terminals.
    Mr. Cohan. And you could piggyback on the infrastructure. I 
mean, that's----
    Mr. Weber. Well, that's the point.
    Mr. Cohan. Yes.
    Mr. Weber. Sure. You bet. Mr. McNerney and Dr. Robertson, 
that was about the beach erosion. I'm jumping back. Ms. 
Richards, you talked about injecting the fluid that it was hot, 
you didn't need it, and you injected it at night, and you 
brought it back during the day. Do you remember that?
    Ms. Richards. Yes, I did.
    Mr. Weber. OK.
    Ms. Richards. Correct.
    Mr. Weber. You're going to lose temperature at some point. 
You're going to have a temperature drop. Have we calculated how 
much of a heat loss we have at that point?
    Ms. Richards. So there are people who have worked on that, 
and I can get back with you in more detail.
    Mr. Weber. OK. And then, finally, Mr. Robertson, you were 
talking with Congressman Baird about a community in Alaska that 
had a potential project. What's the population of that 
community?
    Dr. Robertson. I don't know the number off the top of my 
head, but it's less than 100.
    Mr. Weber. Less than 100? I would say that's a fairly 
small-scale plan.
    Dr. Robertson. Without a doubt.
    Mr. Weber. Yes. And you said they do diesel power. Are you 
aware of Newfoundland, I was there about 10 years ago, give or 
take, and they use a lot of diesel power. Do you know if they 
still do?
    Dr. Robertson. Newfoundland?
    Mr. Weber. Yes.
    Dr. Robertson. They do, and they've got their large-scale 
hydro system that they're also building. Part of the value of 
these small communities is that we can build economies of 
scale, and we can build small prototypes that are cheaper.
    Mr. Weber. OK. All right. Well, I don't want to keep 
everybody. Thank you, Mr. Chairman.
    Chairman Lamb. Thank you. And Mr. Foster for an additional 
5 minutes.
    Mr. Foster. Thank you, Mr. Chairman. Mr. Cohan, could you 
say a little bit about collaborations with the National labs, 
and how you see this fitting into things? Dr. Solan, I'm sorry.
    Dr. Solan. Yes. We've worked directly with the National 
labs in all of our programs, so we utilize the universities, we 
utilize the National labs. It depends on the program which 
specific ones that they work with, but National laboratories 
are--foundation of knowledge, as far as--and doing certain work 
that is mission driven, based on our programs. And they also 
work directly with businesses.
    Mr. Foster. Is the handling of the intellectual property, 
which we've sort of touched on, you know, is there a clearly 
understood national goal that's in, you know, I sort of view 
the decarbonizing the world economy as two problems. One, the 
U.S. You know, we have enough money in this country to 
decarbonize our own economy, but unless we can develop cheap 
technologies, that's not going to be enough for, you know, 
India, South America, other places with less money, so we have 
to work on knocking down the costs of these things.
    And part of that is that we're not doing this entirely as a 
profit-making enterprise for the United States. We have to 
understand we're providing technologies that will be used 
worldwide. And I guess, Mr. Cohan, what is your sort of 
attitude about the worldwide goals in this? Are there a bunch 
of for-profit entities that are trying to go and dominate the 
market here, or are they really trying to all solve the problem 
with whatever technology ends up working?
    Mr. Cohan. We see this mission as part of--we see them as 
one in the same, frankly. We see corporate sustainability as 
part of environmental sustainability. So we've made a very 
specific decision as a company to pursue clean energy as a 
means of maintaining ourselves as an entity going forward. And 
so, you know, our core mission is an idea of open power, the 
idea that, as we create things that benefit the communities we 
operate in, we too survive as a corporation.
    Mr. Foster. Yes, Ms. Richards?
    Ms. Richards. I'd like to point out that many of the small 
technologies for turbines that have come through United States 
that are companies that haven't succeeded, and now one of the 
companies that is pushing forward is a company called Climeon, 
who's out of Norway, or Sweden, up in that part of the world, 
and coming in, and is, like, the new, exciting one that people 
are also looking at. And that's a case where we are losing out 
because it is needed technology around the world, and if we 
could support these small companies, we would have a technology 
to export.
    Mr. Foster. OK. So there's still a problem with tech 
transfer in this? That, you know, there's a long list of things 
that were developed at U.S. labs and commercialized offshore, 
including many money-losing enterprises offshore.
    Mr. Cohan. Can I add to that? On tech transfer, you know, 
when we partner with startups, and when we partner with 
National labs, we have a very clear delineation between IP that 
we create mutually, and IP (intellectual property) that the 
startup brings to the community, and we try to focus, as a 
company, on our core mission, which is producing reliable 
electrons, and valuable electrons. And so our goal is to 
support the development of this R&D, and to support the 
development of intellectual property. And so, you know, if we 
were to--it, it would get in the way of our actual mission.
    Mr. Foster. Now, someone who--may have been Dr. Solan, 
mentioned salinity gradients as a source of potential power. 
What's the status of that, and are there near-term projects? 
Dr. Robertson, it's yours? Your testimony also mentioned 
charging stations for underwater things. Is there a bunch of 
military money going into that for drone swarms and stuff? If 
you'd just give a quick update on those two things?
    Dr. Robertson. So, on the first one, I would have to get 
back to you on it. I'm not familiar with the current status of 
ocean thermal and ocean salinity. On the second one, the UUV, 
underwater vehicle recharge, yes, there's definitely military 
interest in that space, but there's also great oceanographic 
interest too. We don't understand the ocean yet. That is purely 
due to the fact that we can't provide reliable power to sensors 
in the deep ocean, and we need to be able to overcome that 
barrier. We have the sensors, but we can't power them. So 
marine energy provides an opportunity for us to be able to 
power those sensors so we can understand the ocean. We also 
have military applications that those would provide a huge 
benefit to.
    Dr. Solan. We did mention in testimony thermal conversion. 
In terms of the priorities of the WPTO, we spend the most, in 
terms of marine energy, on wave energy, because that's our 
biggest resource, and probably thermal conversion is probably 
an area where we provide the least, just because of the 
opportunities, and where our budgetary priorities are.
    Mr. Foster. All right. Thank you, and yield back.
    Chairman Lamb. OK. Thank you again to all the witnesses for 
joining us. This was a tremendously helpful hearing, as we get 
ready to finalize this legislation. Just a reminder the record 
will remain open for 2 weeks for any additional statements from 
Members, and for any additional questions the Committee may 
have for the witnesses. With that, the hearing is now 
adjourned.
    [Whereupon, at 3:41 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. David Solan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Bryson Robertson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Joseph Moore

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Maria Richards

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Sander Cohan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record




                Documents submitted by Dr. Joseph Moore
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                

               Documents submitted by Ms. Maria Richards
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               

                                 <all>
</pre></body></html>
